(763) 234 – 0447

attorney.rnelson@live.com

PO Box 120670, Saint Paul, MN 55112

November 18, 2019
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Sent via US Postal Service and EFS
Re: Streambend Properties II, LLC et. al. v. Ivy Tower Minneapolis, LLC et. al.
Dear Clerk of Supreme Court:
Please find attached one copy of a Petition for Writ of Certiorari and its Appendix. An
electronic version of the Petition for Writ of Certiorari and its Appendix was submitted on
Monday, November 18, 2019.
These documents were sent to the printers for printing conforming with the Rules of
Supreme Court on Tuesday November 12, 2019. As of the date and time of this letter, we have
not yet received the printed pamphlets. We will send them as soon as we receive them. We
apologize for any inconvenience this might cause.
Sincerely,
/s/ Jerald Hammann
Jerald Alan Hammann
1566 Sumter Ave N
Minneapolis, MN 55427
(612) 290-7282
Petitioner
and
/s/ Rachel K. Nelson
Law Offices of Rachel K. Nelson, PLLC
PO Box 120670
St. Paul, MN 55112
(763) 234 – 0447
attorney.rnelson@live.com
Attorney for Petitioners

